No. 19-125
In the

Supreme Court of the United States
GALE ZAMORE,
Petitioner,
v.
DEUTSCHE BANK NATIONAL TRUST CO.,
INDIVIDUALLY, AND AS TRUSTEE FOR
JP MORGAN MORTGAGE ACQUISITION TRUST
2007-CH5 ASSET BACKED PASS-THROUGH
CERTIFICATES SERIES 2007-CH5,
Respondent.

On Petition for a Writ of Certiorari to the United
States Court of A ppeals for the Eleventh Circuit

PETITION FOR REHEARING
Bruce Jacobs
Counsel of Record
Jacobs Legal, PLLC
Alfred I. Dupont Building
169 East Flagler Street, Suite 1620
Miami, Florida 33131
(305) 358-7991
jacobs@jakelegal.com
Dated: February 7, 2020
294399

Counsel for Petitioner

A
(800) 274-3321 • (800) 359-6859

i
TABLE OF CONTENTS
Page
TABLE OF CONTENTS . . . . . . . . . . . . . . . . . . . . . . . . . . i
TABLE OF CITED AUTHORITIES . . . . . . . . . . . . . . . ii
PETITION FOR REHEARING . . . . . . . . . . . . . . . . . . . 1
GROUNDS FOR REHEARING  . . . . . . . . . . . . . . . . . . 1
A. JESINOSKI IS THE SUBJECT OF
R EBELLION BY T H E L OW ER
COURTS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5
CONCLUSION  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12

ii
TABLE OF CITED AUTHORITIES
Page
CASES
D.C. Court of Appeals v. Feldman,
460 U.S. 462 (1983) . . . . . . . . . . . . . . . . . . . . . . . . . . 8, 9
Hubbard v. Ameriquest Mortg. Co.,
624 F. Supp. 2d 913 (U.S.D.C. Ill. 2008) . . . . . . . . . . . 6
Jesinoski v. Countrywide Home Loans, Inc.,
135 S. Ct. 790 (2015) . . . . . . . . . . . . . . . . . . . . . . passim
Lippner v. Deutsche Bank Nat’l Trust Co.,
544 F. Supp. 2d 695 (U.S.D.C. Ill. 2008) . . . . . . . . . . . 6
McIntosh v. Irwin Union Bank & Trust, Co.,
215 F.R.D. 26 (U.S.D.C. Mass. 2003)  . . . . . . . . . . . . . 6
Rooker v. Fidelity Trust Co.,
263 U.S. 413 (1923)  . . . . . . . . . . . . . . . . . . . . . . . . . . 8, 9
STATUTES AND OTHER AUTHORITIES
15 U.S.C. § 1635  . . . . . . . . . . . . . . . . . . . . . . . . . . . . passim
15 U.S.C. § 1635(a)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6
Fed. R. Civ. P. 42.2  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
Fed. R. Civ. P. 44.2  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

1
PETITION FOR REHEARING
Pursuant to Supreme Court Rule 44.2, Petitioner,
Gail Zamore, respectfully Petitions this Honorable Court
to Grant a Rehearing on the Court’s Order denying
Certiorari in this action for the following reasons.
GROUNDS FOR REHEARING
This case is about the authority of this court, the
primacy of its rulings and the ultra vires acts of lower
courts in defying the holdings of this court. The denial of
certiorari fuels a rampant rebellion of the courts that is
creating a shadow doctrine in which individual trial judges
and even appellate judges and panels are disregarding or
excluding remedies provided by statute and rejecting the
rulings of this court. Anything less than acceptance of
this case for review will result in perpetuation of Courts
across the nation undermining the rule of law.
Rule 42.2 states in pertinent part that any petition
for the rehearing of an order denying a petition for a writ
of certiorari or extraordinary writ shall be filed within
25 days after the date of the order of denial . . . but its
grounds shall be limited to intervening circumstances of
a substantial or controlling effect or to other substantial
grounds not previously presented. . . .
In this action, a state court trial judge, a Federal
District Court Judge and the 11th Circuit Court of Appeals
have ignored or refused to apply a Federal Statute and
a final decision, a presumably controlling holding, of this
Court. The statute in question is 15.U.S.C. §1635 and this
Court’s holding is Jesinoski v Countrywide. The facts are

2
not in dispute. The borrower’s/petitioner’s rescission was
timely sent and received. The loan contract was canceled
and yet three courts have ignored or openly rejected the
effect of the statute as held by this Court and allowed
foreclosure on a mortgage and note that were canceled
as a matter of law.
Congress recognized in the 1960’s that lenders must
be subject to rigorous regulation or they would continue
predatory practices against unsophisticated consumers.
Faced with the choice of creating a new agency that would
review every loan or enacting a self-regulating system,
Congress chose the latter and it was signed into law as
the Federal Truth in Lending Act (TILA).
The effect of the current rebellion of lower courts
against the regulatory mechanism contained in the TILA
rescission statute and this Court’s clearly established
holding in Jesinoski is to remove all regulation --- or
at least all consequences --- from violations of the
requirements contained in the lending statutes. This
contradicts Congressional intent and what this court has
already ruled. The refusal to enforce the TILA regulations
puts consumer borrowers back in the unprotected
positions they occupied before the Truth In Lending Act
was enacted more than fifty years ago.
The question before this court is whether this open
rebellion on three levels of combined state and federal
judiciaries can be tolerated. At stake is whether our
nation and its institutions are governed by the rule of law
or chaos.

3
In fact, presently, it appears that no decision in any
court has applied the TILA rescission statute as written
despite the clear and unambiguous wording of the statute
and the clear, unambiguous and express ruling of this
Court in Jesinoski.
Even in older cases where some relief was granted
based upon the TILA Rescission statute, the rulings
included judicial approval of whether the notice of
rescission was justified; each such case rejecting the event
of rescission and creating precedent that rescission is a
claim regardless of whether it is under common law or the
TILA rescission statute.
This current practice of the lower Courts has
the effect of converting the statutory rescission from
the self-executing event set forth in the statute to a
claim necessitating judicial intervention. This, in turn,
unnecessarily burdens borrowers with procedural
obstacles that do not exist under the clear and unambiguous
language of the statute. It requires acts by the borrower
to make the rescission effective besides mailing --- the
exact opposite of the provisions of the statute and the exact
opposite of what this court unanimously ruled in Jesinoski.
Hence the purpose of the TILA rescission statute has
been turned on its head by lower courts (without any right,
justification or excuse) uniformly rejecting the holding of
this court and the express wording of the statute. The
denial of certiorari by this court thus further emboldens
the courts which are continuing to deny unambiguous
statutory relief to borrowers and further to assert
authority to “overrule”, reject or ignore statutes and the
express holding of this court.

4
In the case at bar, all of the previous described courts
had before them a timely sent notice of rescission that was
legally effective upon mailing. The mailing, timing, and
receipt are not in dispute.
With no dispute over the sufficiency of the notice,
the federally mandated timely rescission of Petitioner
homeowner had occurred by operation of law. Title to
the property has changed from being encumbered by a
mortgage to being unencumbered, with the duty to record
the release of the mortgage placed on a party purporting
to represent the creditor. Nonetheless, the foreclosure
of petitioner’s homestead has proceeded as though the
rescission did not exist.
In short the three previous courts have ignored the
ruling in Jesinoski, and the courts following the state
court have ratified and per curiam affirmed the trial court
while the federal trial and appellate courts have refused
to correct the blatant rejection and avoidance of Jesinoski
and U.S.C. § 1635.
The homeowner herein, Plaintiff Zamore, has done
everything correctly to timely rescind the underlying
loan pursuant to U.S.C. 1635 as well as Jesinoski, yet the
courts, both state and federal, have refused to follow the
law.
This presents a clear challenge to the rule of law and
a further challenge to the authority of the Supreme Court
of the United States. These challenges continue daily in
part because this court has denied certiorari in this case.
It opens the door for courts to make future challenges
when they disapprove of the policy set by lawful statutes.

5
In plain words, a paradigm shift has occurred wherein the
opinion of any judge is superior to the written law and the
holdings of this court.
The position of the various attorneys for the Appellee
has simply been that regardless of statutes or a holding by
the highest court in the land, the courts need not concern
themselves with rescission under the Truth in Lending
Act as passed into law by the U.S. Congress over 50 years
ago. Across all jurisdictions, the statute is dying despite
the absence of repeal or a contrary decision changing the
decision in Jesinoski.
The denial of certiorari itself has emboldened courts to
believe they can ignore statutes and ignore the rule of law
as finally decided in decisions of this court, especially as it
relates to rescission under the Federal truth In Lending
Act. The spread of such specious doctrine undermines the
rule of law, respect for our institutions and the confidence
in the marketplace where, despite the existence of laws
and rules and precedent, lawyers can offer the possibility
that they might convince the judge to ignore the law.
A. JESINOSKI IS THE SUBJECT OF REBELLION
BY THE LOWER COURTS
In Jesinoski v. Countrywide Home Loans, Inc.,
135 S. Ct. 790 (2015), the late Justice Scalia wrote a
unanimous decision in which the opinion noted that
the Truth in Lending Act gives borrowers the right to
rescind loans for up to three years after the transaction
is consummated. This Honorable Court held that the
borrower was’t required to file an action for rescission or
to take any further action and further that under U.S.C.

6
1635(a), rescission is effected when the borrower notifies
the creditor of his intention to rescind. It is an event not
a claim. No additional steps are required to effect the
rescission. But the courts across the country reject that
self-evident proposition.
In the action sub judice, the borrower gave timely
notice pursuant to U.S.C. 1635(a) of her intent to rescind
within the statutory period. The underlying loan was
rescinded. Under the regulations pursuant to said statute
the Note and mortgage were void upon said rescission.
As unanimously stated by this court five (5) years ago,
TILA Rescission is a self-executing statutory remedy that
operates as a matter of law. It is not a claim that requires
any further action by the borrower. 15 U.S.C.S. §1635.
McIntosh v. Irwin Union Bank & Trust, Co., 215 F.R.D.
26 (USDC Mass. 2003), Hubbard v. Ameriquest Mortg.
Co., 624 F.Supp.2d 913 (USDC Ill. 2008) and Lippner v.
Deutsche Bank Nat’l Trust Co., 544 F.Supp.2d 695 (USDC
Ill. 2008).
The Federal trial court in the case at bar was
presented with a complaint that mirrored the complaint
in Jesinoski, as the facts were substantially the same
with regard to the rescission. A party claiming to be the
lender had filed a foreclosure action. The Petitioner here
responded by asserting that foreclosure was impossible
since it was based upon a loan that had been rescinded.
The state court utterly ignored the defense of rescission,
despite the clear and obvious absence of subject matter
jurisdiction. The Federal District Court dismissed the new
complaint by Petitioner with prejudice, holding Jesinoski
will not be followed and the rescission statute would not
be applied.

7
If any of those courts had followed the Jesinoski
decision, they would have held that the borrower was not
required to seek rescission in court, but that the notice
of her intent to rescind was sufficient to rescind the loan
--- as specifically and expressly stated by Justice Scalia
in Jesinoski. Thus the Federal District Court and the
Federal Appeal Court both failed to follow the Jesinoski
decision, thus presenting a question of direct conflict
between the lower Federal Courts and the highest court
in the land. As Justice Scalia made crystal clear, there
is no room for interpretation or wiggle room, to wit: the
statute is unambiguous, constitutional and must be applied
as written.
That should have settled the matter. If it had, Appellant
Zamore would not be before this court and judges on state
and Federal courts would not be acting ultra vires and
abusing their powers by ruling on documents that have
no legal effect simply because they don’t agree with that
statute or this court in its unanimous Jesinoski holding.
Had the Federal District and Appellate Courts
followed Jesinoski, the decision would have been rendered
that the Petitioner’s Complaint stated a cause of action,
that the Note and Mortgage were, in fact, rescinded, and
that Respondent herein is liable for damages caused by
its actions following the effective rescission of the Note
and Mortgage.
Jesinoski held that the timely rescission was enough to
rescind the Note and Mortgage. Hence any action deriving
its foundation from the note or mortgage MUST BE VOID.
The only enforcement action available was the statutory
scheme set forth by the TILA Rescission statute which has

8
been ignored by the lender and successors whose behavior
the statute was intended to regulate.
In this matter --- as in thousands of cases across the
country --- the lender ignored the rescission, pursued
foreclosure in state court, and the state court entered
judgment on a rescinded (void) Note and Mortgage.
Petitioner’s subsequent action seeking remedies in federal
court based upon the effectiveness of the rescission was
held insufficient to state a cause of action. None of that
changes the fact that title changed as a result of the
rescission as a matter of law. Yet the lower courts are
uniformly rejecting that reality.
The District Court reviewed the pleadings submitted
by the Defendant from state Court actions in which the
Petitioner had clearly attempted to allege that the Note
and Mortgage had been rescinded and created the theory
that that the failure of the State Court to address, much
less follow, the law as set for in U.S.C. 1635 and in Jesinoski
rendered the federal lawsuit subject to dismissal under
the Rooker-Feldman doctrine. See Rooker v. Fidelity
Trust Co., 263 U.S. 413 (1923) and D.C. Court of Appeals
v. Feldman, 460 U.S. 462 (1983). In short, the circuitous
logic employed allows that jurisdiction somehow arose at
the moment that the state court had committed the ultra
vires act of ignoring the statute and the holding of this
court of last resort.
The circuitous argument has resulted in an injustice
and ultra vires rejection and circumvention of the
Jesinoski decision and is emblematic of all such decisions
in all jurisdictions. Despite thousands of timely rescissions
under 15 U.S.C. §1635 it appears that no foreclosure has

9
been denied on the basis that the note and mortgage were
void along with the rest of the loan agreement and that a
new statutory framework was created to collect the debt.
United States Supreme Court decision of Jesinoski is
routinely ignored by state and Federal trial and appellate
courts and lawyers are now claiming that, at least in
jurisdictions covered by the 11th Circuit, courts are barred
from applying Jesinoski or 15 U.S.C. § 1635.
This produces the illegal and anomalous results.
Despite rescinding the loan transaction, borrowers obtain
no relief or remedy. The protections legislated by the U.S.
Congress are refused. This is now true for all borrowers
who send a timely notice of rescission. And because, in
the subject jurisdiction (which mirrors all others), the
decision of this Court may be ignored along with the
statute, parties claiming to be creditors need do nothing
since consumers are denied their rights under the Truth
in Lending Act. This denial of TILA protections has
already been unanimously rejected directly or by clear
implication in Jesinoski.
The purpose of the Rooker-Feldman Doctrine was
not intended to permit State Courts to disregard United
States Supreme Court decisions. And it certainly was
not meant to be a vehicle by which courts could arrogate
unto themselves the authority to hear matters that were
not legally before them. But that is exactly the current
reality, and this court’s denial of certiorari has added
considerable fuel to that fire.
Since the Note and Mortgage at issue were, in fact,
timely rescinded, all actions involving a foreclosure
constituted a rejection and avoidance of Jesinoski. The

10
merits of this action MUST BE HEARD to avoid a
continual litany of cases that seek to enforce the erroneous
decisions of state courts that violate the law of the land.
The Petition for Writ of Certiorari must be granted to
stop the lower courts from inventing authority to overturn
statutes and the decisions of this court.
It is imperative that this Honorable Court admonish
state and federal courts that its decisions are not subject
to being disregarded, overturned or abandoned by the
artifice of merely failing to abide by the thorough and
well-reasoned opinion that was assumed to be the law of
the land. Borrowers should rely on the Jesinoski decision
as a holding that mandates both state and federal trial
and appellate courts to honor the legislation as enacted
and the U.S. Supreme Court decisions.
The behavior of the lower courts creates an ultra vires
shadow doctrine that negatively affects all borrowers
who did everything correctly when rescinding their loans
and renders the Jesinoski decision effectively abandoned
and overturned by lower courts. But further, it sets the
precedent that ultra vires acts can be undertaken by
the courts contradicting express holdings of the highest
court in the land. If the rule of law is to be maintained
this behavior cannot be left unchecked. This defiance
cannot stand.
There has been no change to the federal laws as
interpreted by the Jesinoski decision. There has been
no U.S. Supreme Court decision to change the decision
in the Jesinoski case. The self-executing nature of a
TILA rescission, as held in Jesinoski, is being ignored,
overturned and circumvented by the state and federal
trial and appellate courts, and, in this very case.

11
The only path available to uphold the rule of law is for
this Honorable Court to accept jurisdiction and render an
opinion as to whether or not it overrules Jesinoski, since
that is what the lower courts are doing. That previously
resolved issue is very much in doubt by reason of the denial
of certiorari here.
It is critical to the law and notions of the binding
authority of the United States Supreme Court that both
state and federal trial and appellate courts know that
there will be no permissible avoidance of the clear dictates
of constitutional statutes or holdings of the highest court
of the land.
For the foregoing reasons, Petitioner hereby requests
that a Re-Hearing on the Court’s ruling that denied the
Petition for Writ of Certiorari.

12
CONCLUSION
It is said that 99.4% of the cases on Certiorari sent to
this Honorable Court are turned down. Here, before this
Honorable Court is the choice to enforce the law of the
land or to effectively create new doctrine that relegates
itself subservient to “lower” courts --- for if certiorari is
denied, it serves to affirm the erroneous decisions of the
state and federal judges ignoring a federally mandated
remedy and this Court’s holdings.
			

Respectfully submitted,
Bruce Jacobs
Counsel of Record
Jacobs Legal, PLLC
Alfred I. Dupont Building
169 East Flagler Street, Suite 1620
Miami, Florida 33131
(305) 358-7991
jacobs@jakelegal.com
Counsel for Petitioner

13
CERTIFICATION OF PARTY

Gail Zamore, by and through undersigned counsel,
hereby certifies that this petition for rehearing is
restricted to the grounds specified in Sup.Ct.R. 44.2 and
has been presented in good faith and not for delay.
Respectfully submitted,

COBS

ou sel of Record
JACOBS LEGAL, PLLC

Alfred I. Dupont Building
169 East Flagler Street, Suite 1620
Miami, Florida 33131
(305) 358-7991
jacobs@jakelegal.com

Counsel for Petitioner

